                               NATIONAL SCIENCE FOUNDATION 

                                 WASHINGTON, D.C. 20550 





    Office of
Inspector General .



  CLOSING MEMORANDUM

               DATE: December 17, 1990
     SUBJECT: OIG 91-3107               (fVlCfV-1I1)
                 TO: File
                                                             n      .-(
               FROM: CounseJ +,-, the Inspector General'~J i .~'-'v-..:. \~"(',
  A 1982 grant (#           IIIIIIII)
                           for anthropological research in                         IIIIIIII
  was suspended because of the political situation in that country.
  The political condition has now changed and the Anthropology
  Program has proposed renewing the initial grant.
                                ·_......mpla iLo..:.,... L.lli.... '-He gr.a.L.... h";'O lieing
  re-issued after this long lapse of time without peer review. The
  Inspector General discussed this matter with the Assistant
  Director for BBS and it was agreed that the grant renewal would
  be sent our for peer review.
  The complainant also asserted that his past grant applicat
                      i~                 blems associated wit
                       ..               in the mid-1980 1 s.
                       ~n a s          of the matter according
              in the files of the Office of General Counsel.    We
  advised the complainant by telephone that we were not able to
  reopen matters directly or indirectly related to a settlement
  agreement.  However, we assured the complainant that if he were
  to submit a future grant application to the Foundation we would
  monitor the application to ensure that it was handled fairly.
  In particular, the complainant asserted that a program officer in
  anthropology may have interfered with his grant application in
  1987. The anthropology program is in the BBS directorate and the
  1987 grant application was in the geosciences directorate.     We
  have no evidential indication that there was any involvement of
  BBS personnel in the application for a grant in geosciences.
  Given the passage of time, and our limited resources we have
  decided not to evaluate this claim further.

   ~t673
  fP7}
  I.:l./ I 7   /9 D
